C@OCKLE

L 1 Bri E-Mail Address:
€ga riefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, et al., Petitioners,
v.
CITY OF PHILADELPHIA, et al., Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of June, 2020, send out from
Omaha,- NE 3 package(s) containing 3 copies of the BRIEF OF CHRISTIAN LEGAL SOCIETY, THE ANGLICAN
CHURCH IN NORTH AMERICA, CENTER FOR PUBLIC JUSTICE, INSTITUTIONAL RELIGIOUS FREEDOM
ALLIANCE, THE LUTHERAN CHURCH—MISSOURI SYNOD, QUEENS FEDERATION OF CHURCHES, UNION OF
ORTHODOX JEWISH CONGREGATIONS OF AMERICA, AND WORLD VISION, INC. AS AMICI CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

Thomas C. Berg Douglas Laycock
University of St. Thomas Counsel of Record
School of Law University of Virginia
MSL 400 : Law School
1000 LaSalle Ave. 580 Massie Road
Minneapolis, MN 55403 Charlottesville, VA 22903
651-962-4918 512-656-1789
tcberg@stthomas.edu dlaycock@virginia.edu

Kimberlee Wood Colby

Reed N. Smith

Center for Law and
Religious Freedom
Christian Legal Society
8001 Braddock Rd., Ste. 302
Springfield, VA 22151
703-894-1087
kcolby@clsnet.org

Subscribed and sworn to before me this 3rd day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL HOTARY-State of ebraska
RENEE J. GOSS
My Comm. Exp. September 8, 2023

    

eos? Ondiw-h, Chl

Affiant

 

   

Notary Public
Service List

Mark Rienzi

Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700

Washington, DC 20036
202-955-0095
mrienzi@becketlaw.org

Counsel for Petitioners

Leslie Cooper

American Civil Liberties Union
125 Broad St.

New York, NY 10004
212-519-7815

lcooper@aclu.org

Counsel for private Respondents

Neal Katyal

Hogan Lovells US LLP

555 13th St., NW

Washington, DC 20004

202-637-5528

neal. katyal@hoganlovells.com

Counsel for governmental Respondents
